CERTIFICATE OF SERVICE
NO. TBD
Akeva LLC
Petitioner,
v.
Nike et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the AKEVA
LLC PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Christopher J. Renk
Arnold & Porter
70 West Madison Street
Suite 4200
Chicago, IL 60602-4321
(312) 583-2423
chris.renk@arnoldporter.com
Counsel for Nike

Matias Ferrario
Kilpatrick Townsend & Stockton LLP
1001 West Fourth Street
Winston-Salem, NC 27101
(404) 815-6500
mferrario@kilpatricktownsend.com
Counsel for adidas America

Richard A. Coughlin
Fox Rothschild LLP
230 N. Elm Street, Suite 1200
Greensboro, NC 27401
(336) 378-5471
rcoughlin@foxrothschild.com
Counsel for New Balance

Alex John Hagan
Ellis & Winters LLP
P.O. Box 33550
Raleigh, NC 27636
(919) 865-7016
alex.hagan@elliswinters.com
Counsel for Puma

Lucas DeDeus

December 14, 2020
SCP Tracking: Battaglia-4608 Brookside Drive-Cover White

